No..

In the
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and as owners, officers,
directors, founders, managers, agents, servents, employees, representatives and/or
independent contractors of LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

CERTIFICATE OF SERVICE
I, Sara Ann Edmondson, certify that on October 3 /. 2019 I served three (3) copies of
the amended Petition for a Writ of Certiorari via regular mail to Respondents at:
Lilliston Ford Inc.
833 N. Delsea Drive
Vineland, NJ 08360
ATTN: Legal Department

71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

